Nos. 19-1257, 19-1258
IN THE

Supreme Court of the United States
______________
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
________
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
________
On Writs of Certiorari to the United
States Court of Appeals for the Ninth Circuit
________

RESPONDENTS’ UNOPPOSED MOTION FOR DIVIDED ARGUMENT
________

MARC E. ELIAS
Counsel of Record
BRUCE V. SPIVA
ELISABETH C. FROST
AMANDA R. CALLAIS
ALEXANDER G. TISCHENKO
LALITHA D. MADDURI
PERKINS COIE LLP
700 Thirteenth St. N.W.
Suite 800
Washington, D.C. 20005
(202) 654-6200
MElias@perkinscoies.com

SARAH R. GONSKI
PERKINS COIE LLP
2901 N. Central Ave.
Suite 2000
Phoenix, AZ 85012
(602) 351-8000
LAUREN P. RUBEN
PERKINS COIE LLP
1900 Sixteenth Street
Suite 1400
Denver, CO 80202
(303) 291-2385

Counsel for DNC Respondents

JESSICA RING AMUNSON
Counsel of Record
SAM HIRSCH
TASSITY S. JOHNSON
NOAH B. BOKAT-LINDELL
ELIZABETH B. DEUTSCH
JONATHAN A. LANGLINAIS
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
jamunson@jenner.com
Counsel for Respondent Hobbs

Pursuant to this Court’s Rules 21 and 28.4, Respondents Democratic National
Committee, the DSCC, and the Arizona Democratic Party (collectively, “DNC
Respondents”) and Respondent Katie Hobbs, in her official capacity as Arizona Secretary
of State, jointly move for divided argument. The DNC Respondents and Respondent
Hobbs respectfully request that the Court divide their argument time evenly so that they
may have time to present their distinct perspectives on the questions presented and
adequately represent their distinct interests in this case. Petitioners, who have also
moved for divided argument, have informed Respondents’ counsel that they do not
oppose this motion.
1.

In its decision below, the en banc Ninth Circuit held that Arizona’s policy

of refusing to count a ballot that is cast outside of a voter’s assigned precinct (the “outof-precinct” or “OOP” Policy) resulted in a denial or abridgment of the right to vote on
account of race or language-minority status in violation of Section 2 of the Voting Rights
Act. The court also held that H.B. 2023, an Arizona statute that criminalizes the nonfraudulent collection of another person’s early ballot, violates Section 2 and the Fifteenth
Amendment. The questions presented in this case are whether the court correctly
applied the Voting Rights Act’s plain text to find that the OOP Policy violates Section 2
and whether the court correctly found that H.B. 2023 violates Section 2 and the Fifteenth
Amendment.
2.

Respondents have been represented by separate counsel throughout this

litigation and continue to be separately represented. DNC Respondents originally filed
suit against Petitioner Mark Brnovich in his official capacity as Arizona Attorney General
1

and Respondent Hobbs’ predecessor in the office of Arizona Secretary of State.
Respondent Hobbs assumed the office of Secretary of State in January 2019 and inherited
this litigation from her predecessor. Notice of Substitution of Party, DNC v. Hobbs, 948
F.3d 989 (9th Cir. 2020) (No. 18-15845), ECF No. 82. Respondent Hobbs has never
defended H.B. 2023 in court. Following the en banc court’s ruling below, she consulted
with county officials about the OOP Policy and determined that there was no state
interest in maintaining the Policy she would not seek further review of the court’s
decision. Petitioner Brnovich nonetheless appealed against Respondent Hobbs’ wishes.
3.

DNC Respondents and Respondent Hobbs have distinct perspectives on

the questions presented and represent distinct interests in this case. Although all
Respondents support affirmance on both questions presented, they offer distinct
arguments in their briefs and are differently positioned to speak to the issues in this case.
As plaintiffs below, DNC Respondents are well-positioned to speak to the record they
developed in the district court regarding the discriminatory impacts that the OOP Policy
and H.B. 2023 have on minority voters in the State. As Arizona’s chief elections officer,
Respondent Hobbs is the state official responsible for promulgating rules governing the
administration of elections in Arizona, including policies like the OOP Policy that govern
the counting of ballots in Arizona. Respondent Hobbs is therefore particularly wellsuited to speak to the State’s interests in election administration and the lack of
justification for both the OOP Policy and H.B. 2023. Respondent Hobbs has also made an
additional argument that Petitioners lack standing to appeal from the en banc court’s
ruling regarding the OOP Policy because State law prohibits the Attorney General from
2

appealing from an adverse ruling against her wishes on the OOP Policy, which is
entrusted to her discretion. She therefore has unique interests in preserving her right
under Arizona law to determine whether to appeal, as well as her right under Arizona
law to determine whether to continue the OOP Policy.
4.

The Court has previously granted divided argument where the Arizona

Secretary of State and private parties appeared on the same side in a voting rights case.
Harris v. Ariz. Indep. Redistricting Comm’n, 577 U.S. 1001 (2015) (mem.).

More

generally, the Court has routinely granted motions for divided argument when private
parties and state parties appear on the same side. See, e.g., Trump v. New York, No. 20366, __ S. Ct. __, 2020 WL 6811251 (U.S. Nov. 20, 2020) (mem.) (State of New York and
private appellees); Fulton v. City of Philadelphia, 141 S. Ct. 230 (2020) (mem.) (City of
Philadelphia and private respondent); Dep’t of Com. v. New York, 139 S. Ct. 1543 (2019)
(mem.) (government respondents and private respondents); Am. Legion v. Am.
Humanist Ass’n, 139 S. Ct. 951 (2019) (mem.) (Maryland-National Capital Park and
Planning Commission and private petitioners); Masterpiece Cakeshop, Ltd. v. Colo. Civ.
Rights Comm’n, 138 S. Ct. 466 (2017) (mem.) (State of Colorado and private respondents).
Respondents submit that divided argument is similarly appropriate here.
5.

For the foregoing reasons, DNC Respondents and Respondent Hobbs

jointly request that the Court divide oral argument time equally between them.
Recognizing the distinct interests of state officials and private parties in this case,
Petitioners have similarly moved for divided argument. Pet’rs Mot. For Divided Arg.,

3

Nos. 19-1257, 19-1258 (U.S. Jan. 6, 2021). Respondents do not oppose Petitioners’ motion,
and they respectfully submit that the Court should grant this Motion for similar reasons.
Respectfully submitted,
MARC E. ELIAS
Counsel of Record
BRUCE V. SPIVA
ELISABETH C. FROST
AMANDA R. CALLAIS
ALEXANDER G. TISCHENKO
LALITHA D. MADDURI
PERKINS COIE LLP
700 Thirteenth St. N.W.
Suite 800
Washington, D.C. 20005
(202) 654-6200
MElias@perkinscoies.com
SARAH R. GONSKI
PERKINS COIE LLP
2901 N. Central Ave.
Suite 2000
Phoenix, AZ 85012
(602) 351-8000

JESSICA RING AMUNSON
Counsel of Record
SAM HIRSCH
TASSITY S. JOHNSON
NOAH B. BOKAT-LINDELL
ELIZABETH B. DEUTSCH
JONATHAN A. LANGLINAIS
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
jamunson@jenner.com
Counsel for Respondent Katie Hobbs

LAUREN P. RUBEN
PERKINS COIE LLP
1900 Sixteenth Street
Suite 1400
Denver, CO 80202
(303) 291-2385
Counsel for DNC Respondents
January 19, 2021

4

